No.

M-ftf

M i H i r r\ r

:

t.j

i.;

i

i

— -.■in.

j

IN THE
SUPREME COURT OF THE UNITED STATES

..

office O

v.

The Department of the Army - Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO
THE U.S. COURT OF APPEALS FOR THE FEDERAL CIRCUIT

Dated: August 10, 2020

■

m i0

Lilibeth Michelson - Petitioner

Lilibeth Michelson
105 Boyton Boulevard
Daytona Beach, FL 32118
(386) 299-8099

““

Suproi i'- ■■

j

■

QUESTION PRESENTED
1. Whether the Federal Circuit erred by reviewing a Merit System Protection
Board Administrative Judge’s decision that a medical note provided after the
disciple was proposed on a substantial evidence instead of de novo standard
and thus affirming the decision rather than remanding for consideration under
the de novo standard.
2. Whether

the

provision

of

administratively

acceptable

evidence

of

incapacitation after a decision is made on a charge of absence without leave
precludes the Merit Systems Protection Board from sustaining the charge of
absence without leave.

1

PARTIES TO THE PROCEEDING
Petitioner Lilibeth Michelson was a petitioner in the court of appeals.
Respondent Department of the Army was also the respondent in the court of appeals.
STATEMENT OF RELATED PROCEEDINGS
There are no related cases to the case in this Court.

11

TABLE OF CONTENTS
QUESTION PRESENTED

1

PARTIES TO THE PROCEEDING

11

STATEMENT OF RELATED PROCEEDINGS

11

TABLE OF AUTHORITIES

I.

II.

IV

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW,

1

JURISDICTION

1

RELEVANT STATUTORY PROVISIONS

1

INTRODUCTION

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

8

The Court should grant certiorari to correct a clear
departure from the accepted standard of review......

8

The Court should grant certiorari to resolve a split in MSPB authority concerning
whether the MSPB may sustain charges of AWOL when administratively
acceptable evidence of incapacitation is provided after the Agency acts
on the proposed discipline
11
CONCLUSION

12

in

APPENDIX
Federal Circuit opinion affirming Merit Systems
Protection Board (May 11, 2020)............................

la

Merit Systems Protection Board initial decision (December 21, 2018)

7a

IV

TABLE OF AUTHORITIES
Cases

Page

Atchley v. Department of the Army,
46 M.S.P.R. 297(1990).........

8-9

Baker v. Dep’t of the Army,
2014 MSPB LEXIS 8474 (M.S.P.B. Dec. 12, 2014)

9, 11-12

Consol. Edison Co. v. NLRB,
305 U.S. 197(1938)....

10

Gottlieb v. Veterans Admin.,
39 M.S.P.R. 606 (1989)

9

Grubb v. Dep’t of the Interior,
96 M.S.P.R. 377 (2004)

9, 11

Michelson u. Dep't of the Army,
No. 2019-1811, 2020 U.S. App. LEXIS 14952 (Fed. Cir. May 11, 2020)

1

Michelson v. Dep't of the Army,
No. AT-0752-18-0424-1-1, 2018 MSPB LEXIS 4843 (Dec. 21, 2018)

1

Parrott v. Merit Sys. Prot. Bd.,
519 F.3d 1328 (Fed. Cir. 2008)

10

Reilly u. OPM,
571 F.3d 1372 (Fed. Cir. 2009)

11

Vanieken-Ryals v. OPM,
508 F.3d 1034 (Fed. Cir. 2007)

11

Vassallo v. DOD,
797 F.3d 1327 (Fed. Cir. 2015)

10

Valenzuela v. Dep’t of Army,
107 M.S.P.R. 549 (2007)

12

Welshans v. U.S. Postal Serv.,
550 F.3d 1100, 1102 (Fed. Cir. 2008)

10

v

Whitmore v. Dep't of Labor,
680 F.3d 1353 (Fed. Cir. 2012)

11

Statutes
5 U.S.C. § 7703

2, 9-10

vi

PETITION FOR WRIT OF CERTIORARI
Petitioner Lilibeth Michelson respectfully seeks a writ of certiorari to review
the judgment of the United States Court of Appeals for the Federal Circuit.
OPINIONS BELOW
The opinion below is unpublished and is available at Michelson v. Dep't of the
Army, No. 2019-1811, 2020 U.S. App. LEXIS 14952 (Fed. Cir. May 11, 2020). The
opinion of the Merit Systems Protection Board is available at Michelson v. Dep't of
the Army, No. AT-0752-18-0424-I-1, 2018 MSPB LEXIS 4843 (Dec. 21, 2018)
JURISDICTION
The judgment of the court of appeals was entered on May 11, 2020. Pet. App.
la. This Court has jurisdiction under 28 U.S.C. § 1254(1).

RELEVANT STATUTORY PROVISIONS
5 U.S.C. § 7703(c) provides
In any case filed in the United States Court of Appeals for the Federal
Circuit, the court shall review the record and hold unlawful and set
aside any agency action, findings, or conclusions found to be—
(1) arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with law;
(2) obtained without procedures required by law, rule, or regulation
having been followed; or
(3) unsupported by substantial evidence;
except that in the case of discrimination brought under any section
referred to in subsection (b)(2) of this section, the employee or
applicant shall have the right to have the facts subject to trial de novo
by the reviewing court.

1

INTRODUCTION
The Court should grant review to correct the Federal Circuit’s departure from
the accepted standard of review and to resolve the split in authority concerning
whether the submission of sufficient evidence of incapacitation after an agency takes
action on proposed discipline for AWOL precludes MSPB from sustaining a charge of
AWOL.
Petitioner was removed from federal service based partially on a charge of
AWOL. In sustaining the AWOL charge, the MSPB Administrative Judge found that
a medical excuse for the absence submitted with close of record briefs at the MSPB
did not excuse a charge of AWOL because it was not submitted prior to Petitioner’s
removal and because it did not comply with leave restrictions the Agency had placed
on Petitioner. Pet. App. 19a-20a. Petitioner appealed to the Court of Appeals for the
Federal Circuit based on MSPB precedent establishing that the submission of
administratively acceptable evidence of an employee’s incapacitation even after the
discipline is imposed precludes MSPB from sustaining a charge of AWOL.
The Federal Circuit incorrectly affirmed the Administrative Judge’s
determination by applying 5 U.S.C. Section 7703(c)(3)’s substantial evidence
standard of review rather than Section 7703(c)(l)’s “not in accordance with law,”
standard.
Additionally, in sustaining the MSPB decision under the substantial evidence
standard, the Federal Circuit did not resolve the question of whether the submission

2

of administratively acceptable evidence of incapacitation after the discipline
precludes MSPB from sustaining a charge of AWOL.
Petitioner respectfully requests that this Court correct the Federal Circuit’s
departure from established judicial process and resolve the question concerning
administratively acceptable evidence.
STATEMENT OF THE CASE
Petitioner, Lilibeth Michelson, was an employee of the respondent, U.S.
Department of the Army (“Respondent” or “Agency”). The Agency issued Michelson
a Notice of Proposed Removal on March 16, 2018, alleging 9 counts of Absent
without Leave (“AWOL”), two counts of failure to follow directions, and one count of
failure to follow direction and creating a disturbance. Pet. App. 10a. On April 16,
2018, the Agency issued a decision letter removing Michelson from her position.
Pet. App. lOa-lla. On December 21, 2018, an Administrative Judge of the U.S.
Merit Systems Protection Board (“MSPB” or “Board”) sustained all charges,
upholding the decision to remove. Pet. App. 30a.
Background
Michelson was a member of the federal workforce for almost twenty-five
years. Pet. App. 29a. In 2005, Michelson began working as a Supply Technician,
with her duty location at Embry Riddle Aeronautical University. Pet. App. 2a.
During her tenure with the Agency, Michelson developed several medical
conditions, including diagnosed generalized anxiety disorder resulting in panic
attacks necessitating medical care. Pet. App. 13a. On December 13, 2017,

3

Michelson went to her doctor and noted that she was feeling stressed and
overwhelmed. Pet. App. 15a. Due to her reported symptoms, and her change in
medication, Michelson’s medical provider wrote a note stating that she would need
to be out of work until January 19, 2018. Pet. App. 16a. On Friday, December 15
2017, Michelson provided the note to her supervisor and requested sick leave from
January 9, 2018 through January 19, 2018. Pet. App. 16a.
Agency Charses Michelson with AWOL
Michelson already had scheduled annual leave from Monday, December 18
2017 until January 8, 2018. Pet. App. 16a. She was unable to access her email
remotely and thus could not access her email while on leave. Pet. App. 18a. It was
only upon her return on January 22, 2018 that Michelson learned that her doctor’s
note had been rejected for not complying with the leave restriction letter, and that
the Agency charged her with AWOL for January 9, 2018 through January 19, 2019.
See Pet. App. 18a.
Michelson is Placed on a 7-Day Suspension
On January 25, 2018, Michelson received a Notice of a Seven Day
Suspension, effective beginning January 29, 2018, which was not based upon the
charge of AWOL from January 9 to 19, 2018. Pet. App. 21a. The decision stated
that an SF-50 “documenting your suspension will be forwarded separately.” Pet.
App. 21a. Based upon previous experience, Michelson believed that she needed a
copy of the SF-50 for the suspension to be effective. Pet. App. 21a. Therefore, on
Friday, January 26, 2018, Michelson emailed the point of contact for CPAC in the
4

Brigade, Ms. Doris Sales, requesting a copy other SF-50, explaining: “Last time,
CPOL told me that I was not allowed to start until I had an official copy of the SF50.” Pet. App. 21a. Michelson did not receive any response from Sales before she
left work that day. Pet. App 21a.
Events of January 29, 2018
Over the weekend Michelson could not access her emails remotely and she
feared that if the SF-50 was not obtained, then the Agency would charge her with
AWOL again. Pet. App. 21a. Therefore, Michelson decided to go to work for the
sole purpose of checking her email, and obtaining a copy of the SF-50 to ensure that
she was in fact suspended, to prevent the Agency from charging her with AWOL.
Pet. App. 21a.
Michelson was at her computer drafting a reply email to Sales when, her
supervisor, CPT Adam Karlewicz, came into the supply room at 09:15am. Pet. App.
22a. Karlewicz refused to listen to her explanation as to why she was at work, and
told Michelson to “close shop and leave.” Pet. App. 22a. Michelson promptly
complied with the directive, and left the supply room. Pet. App. 23a. On her way
out of the building, Michelson went to the Computer Lab Room, a common area for
faculty, staff, and students, to finish the email she had started drafting to Sales to
obtain a copy of the SF-50. Pet. App. 23a.
After confirming that Michelson’s car was still in the lot, at approximately
09:22am, Karlewicz called security to help determine Michelson’s whereabouts;
Officer Randy Collins arrived around 09:30am. Pet. App. 24a. Karlewicz also

5

informed Michelson’s second-line supervisor, Col Todd D. Mitchell, that Michelson
had come into work, and Mitchell also looked for Michelson. Pet. App. 24a. During
their search, Karlewicz and Collins requested that Ms. Christian VanLaarhoven
look in the women’s bathrooms for Michelson. Pet. App. 24a. VanLaarhoven looked
in the first and second floor bathrooms, after which another employee, Marie Rolff,
informed VanLaarhoven that Michelson was in the computer lab. Pet. App. 24a.
VanLaarhoven informed Mitchell, Karlewicz, and Collins that Michelson was in the
computer lab and returned to her office. Pet. App. 24a. Michelson had no reason to
know that people were looking for her while she was in the computer lab trying to
obtain a copy of her SF-50.
Mitchell, Karlewicz, and Collins approached Michelson in the computer lab.
Pet. App. 24a. Michelson then “left the campus without incident.” Pet. App. 24a.
Michelson is Removed from Federal Service
On March 16, 2018, Mitchell proposed Michelson’s removal based upon the
charges of AWOL from January 9, 2018 through January 19, 2018, failure to follow
directions, and failure to follow directions and creating a disturbance based upon
the events of January 29, 2018.1 Pet. App. 16a. On April 16, 2018, Col. Nelson
Kraft removed Michelson after almost twenty-five years of service, sustaining all
three charges by preponderant evidence. Pet. App. 17a.

1 In her decision, the Administrative Judge merged the charge of “failure to follow” in Charge 3 with
the “failure to follow instructions in Charge 2, resulting in the following charges: AWOL, Failure to
Follow Instructions, and Creating a Disturbance. Pet. App. 7a-25a.

6

Michelson’s Appeal to the Merit Systems Protection Board
On April 29, 2018, Michelson appealed the Agency’s decision to remove her to
the Board. Pet. App. 17a. On October 25, 2018, Michelson withdrew her hearing
request, and requested to brief the matter on paper. Michelson filed her close of
record brief on November 19, 2018, disputing that the Agency could prove all three
charges by preponderance of the evidence. As part of her submission, Michelson
submitted a doctor’s note from the same medical provider, obtained after
Michelson’s removal, addressing the cause of Michelson’s incapacitation, as well as
the duration of her incapacitation. Pet. App. 19a.
The Administrative Judge affirmed Michelson’s removal and sustained all
charges. Pet. App. 30a. Upon sustaining all three charges and finding a nexus
between the actions and the efficiency of the service, the Administrative Judge
determined that the penalty of removal was reasonable under the Douglas Factors.
Pet. App. 30a.
Federal Circuit Decision
Michelson then appealed the Administrative Judge’s decision to the United
States Court of Appeals for the Federal Circuit. Pet. App. 2a. The Federal Circuit
affirmed the Administrative Judge’s sustaining of the AWOL charge. Pet. App. 2a3a. The Federal Circuit determined that sustaining the AWOL was supported by
substantial evidence because the Administrative Judge had determined that the
October 25,

2018 medical note Michelson submitted to MSPB was not

administratively acceptable evidence of incapacitation. Pet. App. 2a. The Federal

7

Circuit found that “[b]ecause the letter was found not to be administratively
acceptable, we need not address whether the letter, dated after Michelson’s removal,
was properly considered.” Pet. App. 2a.
The Federal Circuit also affirmed the charges of failure to follow instructions
and creating a disturbance. Pet. App. 4a-5a. Last, the Federal Circuit upheld the
penalty of removal. Pet. App. 5a.
REASONS FOR GRANTING THE WRIT
I.

The Court should grant certiorari to correct a clear departure
from the accepted standard of review.

The Federal Circuit improperly applied the substantial evidence standard to
the question of law of whether to affirm the Administrative Judge’s determination
that the Petitioner’s provision of the October 25, 2018 medical note did not preclude
a finding of AWOL.
a.

A federal employee who fails to follow leave requesting procedures is

not necessarily guilty of AWOL. For example, in Atchley v. Department of the Army,
an administrative judge sustained the federal employee’s removal on an AWOL
charge based only upon appellant’s failure to follow leave procedures, without
determining whether the appellant presented administratively acceptable evidence
of his incapacitation. 46 M.S.P.R. 297, 299 (1990). But the Board reversed the
administrative judge’s decision, holding that a failure to follow leave procedures
“cannot serve as a basis to sustain an AWOL charge” and that the administrative
judge should have determined whether the employee presented administratively
acceptable evidence of incapacitation. Id. at 301.
8

Importantly, the Board also reiterated that it can review an agency’s decision
on the grounds solely invoked by the agency, and cannot substitute what it
considers to be a more sufficient basis for the action. Id. at 302 (citing Gottlieb v.
Veterans Admin., 39 M.S.P.R. 606, 609 (1989)). Therefore, while an agency may
charge an employee with failure to follow leave procedures, it must do so in a
separate charge, i.e. an AWOL charge cannot be sustained due to a failure to follow
leave procedures by the employee. Id. at 301.2
b.

In assessing the October 25, 2018 medical note, the Administrative

Judge made an error of law by conflating the requirements for proving AWOL with
the requirements for proving failure to follow leave requesting procedures. Nowhere
in the opinion did the Administrative Judge determine whether the October 25, 2018
note was administratively acceptable. Instead, the Administrative Judge determined
that the note “does not comply with the leave restriction letter. . . .” Pet. App. 20a21a. However, despite only determining that the October 25, 2018 note did not
comply with the leave restrictions on Petitioner and not reaching the issue of whether
the note was administratively acceptable, the Administrative Judge sustained the
AWOL charge. Pet. App. 20a-21a.
c. 5 U.S.C. § 7703(c) provides that the Federal Circuit must review and set
aside MSPB findings that are

2 The Board has consistently held that even though the charge of AWOL may be “justified based on
the information that the agency had at the time it placed the appellant on AWOL, a charge of AWOL
can be defeated by the submission of evidence of incapacitation, even if that evidence is submitted for
the first time at the hearing before an AJ.” Grubb v. Dep’t of the Interior, 96 M.S.P.R. 377, P.36
(2004) (emphasis added); see Baker v. Dep’t of the Army, 2014 MSPB LEXIS 8474, at *11 (M.S.P.B.
Dec. 12, 2014).

9

“(1) arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with law;
(2) obtained without procedures required by law, rule, or regulation
having been followed; or
(3) unsupported by substantial evidence. . .
5 U.S.C. § 7703(c) (emphasis added).
The Federal Circuit reviews MSPB’s factual findings for substantial evidence,
meaning “such relevant evidence as a reasonable mind might accept to support such
a conclusion.” Parrott u. Merit Sys. Prot. Bd., 519 F.3d 1328, 1334 (Fed. Cir. 2008);
see also Consol. Edison Co. v. NLRB, 305 U.S. 197, 229 (1938) (citations omitted)
(defining.substantial evidence).
The Federal Circuit affirms MSPB’s legal determinations unless they are not
in accordance with law. Welshans v. U.S. Postal Serv., 550 F.3d 1100, 1102 (Fed. Cir.
2008). This means that the Federal Circuit’s review of legal determinations is de
novo. Id.) Vassallo v. DOD, 797 F.3d 1327, 1330 (Fed. Cir. 2015).
d.

In this case, the Federal Circuit incorrectly applied the substantial

evidence standard based on its mistaken conclusion that the Administrative Judge
had determined that the note was not administrative acceptable. The initial decision
is clear that the Administrative Judge did not make any determination as to
administrative acceptability of the October 25, 2018 letter and instead explicitly
analyzed whether the note complied with the heightened leave restriction procedures
the Agency placed on Petitioner. Pet. App. 19a-20a. The Administrative Judge thus

10

applied the wrong law, using the standards for failure to follow leave requesting
procedures instead of the standards for whether an individual is guilty of AWOL.
The Federal Circuit’s use of the far more burdensome substantial evidence
standard in this case warrants correction because it is a significant departure from
the usual course of judicial proceedings. See, e.g., Vanieken-Ryals u. OPM, 508 F.3d
1034, 1043 (Fed. Cir. 2007) (Federal Circuit correcting MSPB’s erroneous application
of the law and remanding for consideration on the proper standard); Reilly v. OPM,
571 F.3d 1372, 1382 (Fed. Cir. 2009) (same); Whitmore v. Dep't of Labor, 680 F.3d
1353, 1377 (Fed. Cir. 2012) (same).
II.

The Court should grant certiorari to resolve a split in MSPB
authority concerning whether the MSPB may sustain charges of
AWOL when administratively acceptable evidence of
incapacitation is provided after the Agency acts on the proposed
discipline.

a.

Because of its incorrect finding that the Administrative Judge

determined the October 25, 2018 note was not administratively acceptable, the
Federal Circuit declined to reach the issue of whether the provision of
administratively acceptable evidence of incapacitation after an agency imposes
discipline precludes MSPB from sustaining a charge of AWOL. Pet. App. 2a. The
Administrative

Judge

held

that

administratively

acceptable

evidence

of

incapacitation must be provided prior to an agency’s decision on AWOL to defeat the
AWOL charge. Pet. App. 21a.
As explained above, however, many other MSPB cases have determined that
AWOL charges can be defeated by the production of administratively acceptable

11

evidence of incapacitation after the discipline is decided and imposed by the Agency.
Grubb v. Dep’t of the Interior, 96 M.S.P.R. 377, P.36 (2004); see Baker v. Dep’t of the
Army, 2014 MSPB LEXIS 8474, at *11 (M.S.P.B. Dec. 12, 2014); Valenzuela v. Dep’t
of Army, 107 M.S.P.R. 549, P.9 (2007);
b.

The Court should resolve this split in authority. Regardless of how the

Court decides this issue, providing clarity to federal agencies and employees will
assist agencies in determining how to process discipline for potentially unexcused
absences. Further, if the Court sides with the weight of authority and resolves this
issue in favor of permitting sufficient information to be presented after an employee
is removed, this would ensure that seriously incapacitated employees would have the
ability to overturn AWOL discipline in instances of absence beyond their control.
CONCLUSION
The petition for writ of certiorari should be granted.

Date: August 10, 2020

Respectfully submitted,

By:

12

